<html>
<title> - IMPLICATIONS OF A U.S.-SAUDI ARABIA NUCLEAR COOPERATION AGREEMENT FOR THE MIDDLE EAST</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


               IMPLICATIONS OF A U.S.-SAUDI ARABIA NUCLEAR
                     COOPERATION AGREEMENT FOR THE
                              MIDDLE EAST

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 21, 2018

                               __________

                           Serial No. 115-122

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-389PDF                   WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f485f406f4c5a5c5b474a435f014c404201">[email&#160;protected]</a>                                  
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
ADAM KINZINGER, Illinois             BRENDAN F. BOYLE, Pennsylvania
LEE M. ZELDIN, New York              TULSI GABBARD, Hawaii
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
ANN WAGNER, Missouri                 THOMAS R. SUOZZI, New York
BRIAN J. MAST, Florida               TED LIEU, California
BRIAN K. FITZPATRICK, Pennsylvania
JOHN R. CURTIS, Utah
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Henry Sokolski, executive director, The Nonproliferation 
  Policy Education Center........................................     8
Mr. William Tobey, senior fellow, Belfer Center for Science and 
  International Affairs, The John F. Kennedy School of 
  Government, Harvard University.................................    18
Ms. Sharon Squassoni, research professor of the practice of 
  international affairs, Institute for International Science and 
  Technology, Elliott School of International Affairs, George 
  Washington University..........................................    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Henry Sokolski: Prepared statement...........................    10
Mr. William Tobey: Prepared statement............................    19
Ms. Sharon Squassoni: Prepared statement.........................    25

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    54
Material submitted for the record by Mr. Henry Sokolski:
  ``A New Light on the Proposed U.S.-Saudi Nuclear Agreement,'' 
    by Victor Gilinsky and Henry Sokolski........................    55
  ``Economic Consideration of Nuclear Power Deployment in Saudi 
    Arabia,'' by Ali Ahmad.......................................    58
  ``Nuclear Cooperation with Gulf Arabs,'' by Mark Fitzpatrick...    66
  ``Saudi Arabia Energy Needs and Nuclear Power''................    68

 
                  IMPLICATIONS OF A U.S.-SAUDI ARABIA
                   NUCLEAR COOPERATION AGREEMENT FOR
                            THE MIDDLE EAST

                              ----------                              


                       WEDNESDAY, MARCH 21, 2018

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    Thank you so much to our panelists, thank you to the 
audience and, most especially, thank you to our--to the members 
of our subcommittee and some visitors that we might--we might 
have join our subcommittee today.
    And after recognizing myself and my good friend, the 
ranking member, Mr. Deutch, for 5 minutes each for our opening 
statements, I will then recognize other members seeking 
recognition for 1 minute.
    We will then hear from our witnesses and without objection, 
ladies and gentlemen, your written statements will be made a 
part of the record and members have 5 days to insert statements 
and questions for the record, subject to the length limitation 
in the rules.
    The chair now recognizes herself for 5 minutes.
    Just last week in an interview aired on CBS News, the crown 
prince of Saudi Arabia stated, ``But without a doubt, if Iran 
developed a nuclear bomb, we would follow suit as soon as 
possible.''
    This interview aired just days after Energy Secretary Rick 
Perry flew to London to discuss a 123, or nuclear cooperation 
agreement, with senior Saudi officials.
    Saudi Arabia is planning to build two nuclear reactors 
along the Persian Gulf in the near future with plans to expand 
to at least 16 reactors across the country.
    But what should alarm us all is Saudi Arabia's insistence 
that it be allowed to have enrichment and reprocessing 
capabilities and statements about acquiring a nuclear weapon.
    The crown prince's interview just last week is reason 
enough to have the administration pump the brakes on the 
negotiations and insist that there will be no 123 Agreement 
that includes enriching and reprocessing.
    Unfortunately, from the little we do know from the 
administration, it is looking at this deal in terms of 
economics and in terms of commerce, and national security 
implications only register as a minor issue, if at all.
    I am not completely opposed to the Saudi--to Saudi Arabia 
having a peaceful nuclear program. But the idea of Saudi Arabia 
having a nuclear program with the ability to enrich is a major 
national security concern.
    There are security risks to consider. As we all know, the 
Middle East is a region that's constantly ensnared in conflict 
and instability or on the verge of conflict and instability.
    We don't need to look further than on Saudi Arabia's own 
borders where the kingdom is leading a coalition against the 
Iranian-backed Houthis in Yemen.
    The Houthis already targeted Riyadh's airport in a missile 
attack. Hezbollah is amassing its presence in Yemen and you can 
be sure that any nuclear infrastructure that goes up will be a 
target as well.
    There are also proliferation risks to consider and the 
precedent that we may set if we allow Saudi Arabia to enrich, 
as other countries in the region will want similar 
capabilities.
    When we negotiated the UAE 123 Agreement, our partners in 
the UAE voluntarily agreed to renounce enrichment and 
reprocessing capabilities and technologies.
    This was a watershed agreement and has become what we now 
know as the gold standard. The previous administration 
abandoned the pursuit of the gold standard for all nuclear 
cooperation agreements after the UAE deal and it appears that 
the current administration, sadly, is following suit.
    And that is why yesterday I joined our colleague from 
California, Mr. Sherman, in sending a letter to the 
administration urging it to pursue nothing short of the gold 
standard in its negotiations with the Saudis.
    Without those assurances, we feel it would be necessary to 
oppose the agreement. There are too many concerns. There is no 
justification for our friends in Saudi Arabia to have 
enrichment and reprocessing capabilities.
    Unfortunately, the way that the current system is set up, 
as you know, it is rigged in favor of the administration--any 
administration--getting its 123 agreements approved no matter 
what.
    When the administration submits its agreement to Congress 
for our review period, we have hearings and we debate the 
merits of the agreement.
    But then the only way that Congress can block the proposals 
is by passing a joint resolution of disapproval. Not only would 
Congress need a majority of votes for the disapproval, we would 
need a large enough majority in order to override the 
President's veto.
    And that is not how it should work. These are agreements 
that have great national security implications, we should all 
have robust debate.
    All of these deals should be thoroughly vetted and then, if 
there is no gold standard, Congress should have to vote to 
approve the proposal and say in the affirmative we agree with 
the President--yes, this is a good deal.
    And that is why Brad and I, along with Judge Poe and 
Ranking Member Keating of our Nonproliferation Subcommittee 
introduced a bill today that would amend this process.
    It's called the Nuclear Cooperation Reform Act. We want to 
amend the Atomic Energy Act. That's the underlying law that 
governs these 123 Agreements and the approval procedures so 
that Congress reasserts our proper oversight role.
    Our bill would force a vote of approval on any 123 
Agreement that falls short of the gold standard, and that's the 
way it should be. We should not allow these agreements to come 
into force passively and we should not cede our authority to 
oversee and approve these agreements to the executive branch.
    I look forward to hearing from our witnesses on this plan, 
and with that, I very much look forward to the statement--
opening statements from our ranking member, Mr. Deutch of 
Florida.
    Mr. Deutch. Thank you, Madam Chairman.
    Thanks for calling today's hearing. Thanks for our 
witnesses. For many members, today is an opportunity to explore 
both the positives and negatives of a nuclear cooperation 
agreement with Saudi Arabia.
    We look forward to a productive discussion about this 
important subject. We, in the United States Congress, are 
strongly committed to ensuring only responsible and peaceful 
use of nuclear technology around the world and preventing the 
proliferation of nuclear weapons technology.
    We also understand the role energy security plays in the 
prospects for long-term stability in the Middle East. As such, 
the United States has demonstrated high standards for nuclear 
agreements in past negotiations.
    The U.S. agreement that paved the way for the United Arab 
Emirates to begin its nuclear energy program has been praised 
as upholding the gold standard of 123 Agreements for its 
prohibition on enrichment and reprocessing.
    As more Middle East nations seek to diversify their energy 
portfolios and limit their reliance on fossil fuels, we now 
must ask ourselves if the gold standard is the bar that the 
United States must always uphold.
    I believe in working to boost the U.S. economy but not at 
the expense of our commitment to good decision making on 
sharing our nuclear technology.
    Saudi Arabia is a strong ally in the Middle East and has 
consistently shared U.S. priorities to counter terrorism and 
limit the spread of dangerous Iranian-backed groups and 
militant ideology.
    The kingdom, however, continues to lag on several fronts 
including human rights, governmental and business transparency, 
and military deficiencies.
    Its government, military, and private sector see large 
influx--a large influx of funding but still suffers from 
mismanagement and inefficiencies stemming from the reliance on 
patronage, corruption, and nepotism.
    Promotions based off lineage rather than expertise, 
corruption and other bad practices will continue, I am afraid, 
to limit Saudi Arabia from thriving and growing.
    Reform is happening, albeit slowly, and we should be 
supportive of the steps the government has taken to address 
some of these shortcomings. Shakeups or trying to remove 
corruption and make industries and ministries more efficient.
    The reforms have touched high levels of Saudi Arabia's 
government, military, and private sector including concentrated 
efforts to root out corruption and graft at Aramco before a 
highly-anticipated public offering that aims to build investor 
confidence and address criticism of widespread corruption and a 
lack of transparency at the company.
    Only time and transparency will tell if these reforms will 
see Saudi Arabia make honest efforts to turn its back on bad 
practices. But we continue to be hopeful and we continue to 
watch the rapid pace of reforms, especially as the changes may 
have important implications on the country's stability and 
ability to safely manage something as important as nuclear 
technology.
    This comes at a time when nuclear technology is an 
increasingly important factor in Middle East relations and the 
battle for influence between Iran and Saudi Arabia.
    Past discussions with the kingdom fell short when Riyadh 
dismissed core aspects of the gold standard agreement with the 
UAE, mainly centering on its priority to retain the right to 
enrich uranium.
    Concessions to Saudi Arabia could threaten the UAE deal and 
set the bar for future nuclear technology negotiations.
    Conversely, the United States maintaining a hard line on 
this matter could conceivably push Riyadh to sign a nuclear 
deal with one of the other countries it gets in discussions 
with, the most concerning being Russia or China, both of which 
have lax standards, quality, and restrictions.
    Russia or China being the signatory on a nuclear deal would 
also increase those nations' sway in this key region with our 
key ally, potentially limiting American influence.
    The future of Saudi Arabia's nuclear program also has 
important implications on the Joint Comprehensive Plan of 
Action with Iran, which limits uranium enrichment but only for 
a set period of time.
    The U.S. attempting to restrict Saudi enrichment may be 
viewed as unfair in light of Iran potentially having the 
ability to restart this technology if it continues to adhere to 
the tenets of the plan.
    Now, I have long raised serious concerns about the sunsets 
in the JCPOA. But we have to draw some distinctions. The key 
difference is that Iran was already enriching uranium and the 
goal was to prevent Iran's enrichment program from building up 
its stockpile of highly enriched uranium that is necessary for 
a nuclear weapon.
    Saudi Arabia will be building this ability anew. Obviously, 
uranium enrichment is no small factor and its implications for 
a nuclear weapons program are extremely concerning.
    And while Riyadh assures the world that it only wants 
peaceful nuclear technology to boost and diversify its energy 
sector, the country also is on record saying if it believes 
Iran is building a nuclear weapon it will quickly follow suit.
    Last week, the Crown Prince stated, as the chair already 
pointed out, Saudi Arabia does not want to acquire a nuclear 
bomb but without a doubt if Iran developed a nuclear bomb we 
will follow suit as soon as possible.
    The fact that there are ample enriched uranium reserves on 
a global market that would be a higher quality and cheaper for 
Saudi Arabia to import rather than try to initiate its own 
enrichment capability leads me to think the catalyst for 
wanting this technology is to maintain parity with Iran rather 
than for energy uses.
    The potential boosts for the U.S. economy and renewal of 
the U.S. nuclear industry are indeed desirable. But it hasn't 
been made clear what we can feasibly expect.
    It's worth discussion today about how much funding it would 
take to revive the industry, given the amount of government 
funds most other countries that produce nuclear technology put 
into their industries.
    The risks are high and will absolutely set a precedent that 
will follow us for decades to come. We don't take this decision 
lightly and I am very grateful to our panel. I hope for a 
productive discussion that may illuminate some of these key 
gaps.
    Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Excellent points. Thank you so much, Mr. 
Deutch.
    And now I am going to recognize the members. Mr. Chabot of 
Ohio.
    Mr. Chabot. Thank you, Madam Chair, for holding this 
important hearing today and I'll be very brief so that we can 
get to the witnesses.
    Whenever we discuss the transfer of nuclear technologies 
there is always cause for concern and, unfortunately, the 
conversation we are having today would be completely different 
without a resurgent Iran.
    The Saudis have to deal with an Iran bent on dominance for 
the foreseeable future. President Obama's Iran deal provided 
Tehran with the cash to expand its influence throughout the 
Middle East and since the JCPOA was agreed to, we have seen the 
mullahs develop ballistic missiles and fight proxy wars 
throughout the region, and on and on.
    Worse, the JCPOA makes it a virtual certainty that Iran 
will develop a nuclear weapon. Iran's nuclear ambitions raise 
the specter that other nations will be forced to follow suit, 
Saudi Arabia in particular.
    So, Madam Chair, thank you for calling this distinguished 
panel here today at this very critical time, and I yield back.
    Ms. Ros-Lehtinen. You are so right.
    Thank you so much, Mr. Chabot.
    And Ms. Frankel of Florida.
    Ms. Frankel. Thank you, Madam Chair. Thank you to the 
ranking member. Thank you both for your very articulate 
thoughtful comments.
    I just want to start by saying that we need to do 
everything possible to prevent nuclear proliferation. Even a 
country that we think are our friends, you just never know 
whose hands these weapons will fall into at a later date.
    What worries me is that we have a President who wrote this 
book, ``The Art of the Deal,'' who believes that success is 
based upon how much money you make and I think there is some 
thinking in the administration's part that our participation in 
this agreement could reap billions of dollars for the U.S. 
economy.
    I know everyone here thinks there is much more at stake 
than that. Mr. Deutch raised, I thought, an interesting 
dilemma, which is, you know, damned if you do, damned if you 
don't, because if it was just up to us and we said no, we are 
not going to get into this agreement with you and that was the 
end of it, I think that would be easy.
    My concern is and what I'd like to hear from you is what 
happens if we don't have an agreement and we just leave it for 
the Saudis to go and make one with Russia or China. I think 
that's the big dilemma here.
    Anyway, thank you for being here and I look forward to your 
testimony.
    Ms. Ros-Lehtinen. Good points, Lois. Thank you so much.
    Mr. Wilson of South Carolina.
    Mr. Wilson. Thank you, Chairwoman Ileana Ros-Lehtinen, for 
convening this important hearing.
    I applaud the Trump administration for their aggressive 
advocacy on behalf of the U.S. nuclear technology in Saudi 
Arabia.
    The energy landscape in Saudi Arabia and the entire Gulf 
Cooperation Council region is shifting dramatically with a 
strong interest in renewable energy and particularly nuclear 
power.
    The facts are clear. Saudi Arabia will construct civilian 
nuclear reactors. The only remaining question is who will build 
them.
    I believe the commercial interests and national security 
interests are intertwined, with suppliers of this technology 
gaining decades of influence over regional energy security and 
nonproliferation standards.
    Sadly, the American nuclear industry has experienced 
setbacks at home with only two reactors under construction at 
Plant Vogtle, adjacent to the district I represent in Georgia. 
The United States should be doing everything in its power to 
find new and emerging markets for its nuclear technology.
    Later today I am grateful to introduce a resolution with 
Congressman Don Norcross of New Jersey aimed at promoting a 
comprehensive U.S. strategy to engage in the developing energy 
market across the entire Gulf Cooperation Council region, 
especially with regard to nuclear power.
    This will include aggressive negotiation of peaceful 
nuclear cooperation agreements with the remaining GCC countries 
just as the administration is now doing with Saudi Arabia.
    I yield back. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Wilson.
    Mr. Sherman of California.
    Mr. Sherman. Thank you for holding these hearings and 
allowing me to participate.
    We already have a gold standard template for 123 Agreements 
or nuclear cooperation agreements. We have one with the United 
Arab Emirates, signed in 2009, which prevents reprocessing and 
enrichment.
    Saudi Arabia also wants a nuclear cooperation agreement 
with us, yet they balked at the idea of such restrictions. We 
need a gold standard agreement.
    Yesterday, I joined with the chair of this committee in 
writing a letter to the secretary of energy on this issue, 
urging that we press for a prohibition of enrichment and 
reprocessing in the nuclear cooperation agreement. Today I join 
with the chairwoman, Congressman Ted Poe, and Congressman Bill 
Keating, the respective chairman and ranking member of the 
subcommittee on nonproliferation in introducing the Nuclear 
Cooperation Reform Act of 2018, to provide stronger 
congressional influence in the process of agreeing to nuclear 
cooperation agreements and requiring an affirmative vote of 
Congress before we enter an agreement that does not meet the 
gold standard.
    Two points I want to make about Saudi Arabia. First, just 
because they are anti-Iran does not mean they are a 
Jeffersonian democracy. And second, even if you find MBS, who's 
here in Washington, to be utterly charming or pro-American, 
remember that the Shah seemed utterly charming and pro-American 
or at least pro-American back in 1978 and 1979, and all the 
weapons under his control are now in the control of the Islamic 
Republic.
    So we need to be careful and not allow Saudi Arabia to 
develop a nuclear weapon just because we are worried about the 
nuclear program in Iran, and I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    And seeing no other requests for time, I am proud to 
introduce our witnesses.
    First, we are delighted to welcome back a good friend, 
Henry Sokolski, executive director of the Nonproliferation 
Policy Education Center.
    Prior to this, Mr. Sokolski served as Deputy for 
Nonproliferation Policy in the Office of the Secretary of 
Defense, and before that he worked in the Secretary of 
Defense's Office of Net Assessment on strategic weapons 
proliferation issues.
    Thank you for being here with us again, Henry, and we look 
forward to your testimony.
    Next, we are delighted to also welcome back a good friend, 
Mr. William Tobey, senior fellow to the Belfer Center for 
Science and International Affairs and director of the U.S.-
Russia initiative to prevent nuclear terrorism.
    Previously, Mr. Tobey served as Deputy Administrator for 
Defense Nuclear Nonproliferation at the National Nuclear 
Security Administration.
    Mr. Tobey also served on the National Security Council 
staff under three Presidents and we look forward to your 
testimony as well, Mr. Tobey.
    And finally, we are delighted to welcome Ms. Sharon 
Squassoni, research professor of practice and international 
affairs at the Institute for International Science and 
Technology Policy at the George Washington University.
    Prior to this position, Ms. Squassoni directed the 
Proliferation Prevention Program at the Center for Strategic 
and International Studies in Washington, DC.
    She has also served at the State Department and in the 
Congressional Research Service. Great to have you here, Ms. 
Squassoni.
    We thank all of our witnesses for braving the weather and 
agreeing to see this hearing through despite the snow. So we 
greatly appreciate your commitment to this important matter.
    And as I had said, your written statements will be made a 
part of the record. Please feel free to summarize, and we will 
begin with Mr. Sokolski.
    Probably move that microphone a little closer. Thank you.

   STATEMENT OF MR. HENRY SOKOLSKI, EXECUTIVE DIRECTOR, THE 
            NONPROLIFERATION POLICY EDUCATION CENTER

    Mr. Sokolski. Thank you very much for holding this hearing 
and showing your true grit in sticking to your flight plan, 
getting us all here despite our whining and complaints.
    This, I understand from my staff, is the thirteenth time I 
have appeared before you to testify on nuclear policy issues.
    Ms. Ros-Lehtinen. You have got to make it interesting, like 
Elizabeth Taylor said to her fifteenth husband.
    Mr. Sokolski. Well, I'd like to. [Laughter.]
    Yes. Well, I do rhyme a lot. I apologize for that.
    I think it's a providential number at this time. I am 
counting on it. This is even not the first time I've testified 
about the legislation that you have pushed.
    In this regard, I want to say that it's been a privilege to 
work with you and your staff on so many of these issues since 
1995. Your willingness to take these issues on actually keeps 
my faith in this institution.
    Actually, it helps me to get up in the morning and not be 
discouraged, and I say that about your example. I hope I 
haven't overdone it. But you can tell I actually think this.
    So I want to ask permission to put four items into the 
record.
    Ms. Ros-Lehtinen. Without objection.
    Mr. Sokolski. Okay. I am not going to go over detailed, 
footnoted, rather detailed testimony but to emphasize three 
points.
    First, I would plead with all the members here not to buy 
the prevailing narrative regarding the proposed nuclear deal 
with the Saudis. The U.S. has leverage. It should use it.
    Second, after the Crown Prince's performance on ``60 
Minutes,'' the key concern about the deal ought not to be to 
what extent it does or does not promote American nuclear 
exports, but whether it green lights Riyadh's desire to get a 
bomb.
    Third, H.R. 5357, the Nuclear Cooperation Reform Act, which 
demands a congressional vote of approval for nuclear 
cooperative agreements that fail to have the gold standard with 
regard to WPT nonweapon states is long, long overdue.
    I'll focus the balance of my time, if I may, on that 
narrative, which, roughly, is the Saudis must have nuclear 
power because they are running out of fossil fuels. We are all 
going to get rich selling them as many as 16 reactors--American 
reactors--but that if we insist on the gold standard and don't 
rush to get congressional approval of an agreement that would 
be more permissive of enriching and reprocessing, our best 
friend in the Gulf will bolt, buy from the Russians and 
Chinese, and we will lose influence.
    The truth is the Saudis don't need nuclear power to meet 
their energy and environmental goals, much less to enrich 
uranium or reprocess spent fuel. Their neighbor, the UAE, 
announced that it will not be building any more nuclear power 
plants but instead will invest in cheaper, quicker, nonnuclear 
energy sources.
    Ms. Frankel, I can just say to you the odds of Riyadh 
buying Russian are about as likely as them buying it from the 
Iranians because, effectively, they are that close and I don't 
think we have to worry about that. Nor do I think the Chinese 
or French products for a variety of reasons, offer any 
attraction. I think it's going to be South Korean if it's going 
to be anything.
    As for getting rich, few now believe the Saudis will be 
buying 16 reactors. The Nuclear Energy Institute's own recent 
analysis now allows that by 2040, at most, the Saudis might 
build eight and perhaps as few as four, while others supporting 
a non-gold standard Saudi deal have even allowed that we'd be 
lucky if they build even one.
    The last point is something to focus on. If, as the Crown 
Prince made clear in the ``60 Minutes'' performance that Saudi 
Arabia is intent on getting a bomb as soon as possible, he 
could do so by using one or both of the two 100-megawatt 
electrical South Korean research reactors that he has already 
bought and does not require a 123 on. This system would afford, 
roughly, six times the plutonium production capacity of Israel 
or India or North Korea when they started off.
    It would be a sufficient bomb starter kit either for the 
production of plutonium or to serve as a cover to procure what 
would be needed to enrich or reprocess.
    The takeaway here is that we need to get the Saudis to 
accept the gold standard, even if they don't buy American. 
Otherwise, we risk leaving the door open for them to get the 
bomb.
    One last comment--some argue that one bomb will neutralize 
another bomb--that a Saudi bomb will neutralize an Iranian 
bomb--that one plus one equals zero.
    That's fuzzy math. Where I come from, one plus one equals 
two and in the Middle East it quickly turns into a much higher 
number.
    Thank you very much.
    [The prepared statement of Mr. Sokolski follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. We appreciate it.
    Mr. Tobey.

 STATEMENT OF MR. WILLIAM TOBEY, SENIOR FELLOW, BELFER CENTER 
  FOR SCIENCE AND INTERNATIONAL AFFAIRS, THE JOHN F. KENNEDY 
            SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY

    Mr. Tobey. Madam Chair, Ranking Member Deutch, members of 
the committee, thank you for holding this hearing, on an 
important but often overlooked subject.
    I will distill my testimony to just six points but would be 
happy to elaborate upon your questions.
    First, the proliferation risks associated with light water 
power reactors are modest and manageable.
    Second, the proliferation risks associated with enrichment 
and reprocessing technology, however, are deep and dangerous.
    Third, Saudi Arabia is justifiably concerned about Iran's 
nuclear program. The Joint Comprehensive Plan of Action has 
serious flaws. The durations of its key provisions are too 
short and it fails to require of Iran a complete and correct 
declaration of all of its relevant nuclear activities.
    Even if the deal endures--and I hope it does, despite its 
flaws, even though I was a critic of it before it was brought 
into force--our forty-sixth President will likely face an Iran 
technically capable of producing enough fissile material for a 
nuclear weapon in weeks or months.
    Fourth, the further spread of enrichment technology would 
only compound these dangers and should be resisted vigorously 
by U.S. policy.
    Fifth, the arguments that the United States lacks leverage 
in this situation are overstated. The United States is the 
kingdom's most important security partner and one of its 
largest trading partners, particularly in the realm of arms 
sales. If we join a race to the bottom, we forfeit this 
leverage.
    Sixth and finally, the United States has never before 
contemplated, let alone concluded, a nuclear cooperation 
agreement with a state that is threatening even provisionally 
to leave the nonproliferation treaty.
    We should have no truck with nations threatening to bolt 
from the NPT, especially not nuclear truck.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Tobey follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Mr. Tobey.
    Ms. Squassoni.
    Thank you. You can push that little button there to 
activate your microphone. Thank you.

 STATEMENT OF MS. SHARON SQUASSONI, RESEARCH PROFESSOR OF THE 
PRACTICE OF INTERNATIONAL AFFAIRS, INSTITUTE FOR INTERNATIONAL 
    SCIENCE AND TECHNOLOGY, ELLIOTT SCHOOL OF INTERNATIONAL 
             AFFAIRS, GEORGE WASHINGTON UNIVERSITY

    Ms. Squassoni. Chairwoman Ros-Lehtinen, Ranking Member 
Deutch, and members of the committee, thanks for the 
opportunity to share some views on the implications of nuclear 
cooperation with Saudi Arabia for the Middle East.
    I too have six points, Will, but we didn't collaborate. 
[Laughter.]
    Before my six points, I want to just give a little bit of 
introductory remarks. In the Middle East, countries have been 
slow to deploy nuclear power for a few reasons--abundant oil in 
some countries, fear after Chernobyl, cost issues, and 
sensitivity about nuclear weapons proliferation, whether it's 
Israel, Iraq, or Iran.
    The first country to deploy a commercial nuclear power 
reactor, Iran, underscored the risks of proliferation. Perhaps 
because of that, the next country deploying nuclear power, the 
United Arab Emirates, took a bold step in renouncing sensitive 
fuel cycle capabilities.
    Separately and in its nuclear cooperation agreement with 
the U.S., the UAE rejected pursuit of domestic uranium 
enrichment and spent fuel reprocessing.
    As the members have noted, that's been called the gold 
standard. Why did the UAE do that?
    Well, it was confident that the international market would 
supply its fuel while being sensitive to the need to instill 
confidence in the international community about its peaceful 
nuclear intentions.
    Besides, as the U.S. has proven, it's possible to run 100 
reactors while relying on foreign sources of uranium and/or 
enrichment and without having reprocessing at all.
    Saudi Arabia is taking a different approach. The U.S. has 
been trying for 10 years to persuade Saudi Arabia to commit to 
relying on the international market. But Saudi officials are 
wary.
    Technology and economics are less important here than 
politics. Saudi officials have stated consistently since 2011 
that they would match Iranian nuclear capabilities whether just 
in uranium enrichment or nuclear weapons.
    For Saudi Arabia, obviously, the Joint Comprehensive Plan 
of Action with Iran is a problem because it did not completely 
eliminate Iran's uranium enrichment program.
    This creates a dilemma for all nuclear suppliers, not just 
the United States. It seems risky to engage in nuclear 
cooperation with a country that has avowed its intention to 
pursue nuclear weapons under specific conditions.
    How confident are Members of Congress that Iran will not 
acquire a nuclear weapon? How confident are Members of Congress 
about Saudi Arabia's intelligence capabilities regarding Iran's 
nuclear program?
    Here are the six points.
    One, critics can debate whether a universal gold standard 
for nuclear cooperation agreements is feasible or desirable. 
But the U.S. has quietly implemented this approach in the 
Middle East since 1981 precisely because of the proliferation 
risks.
    There's no reason to create an exception to that policy for 
Saudi Arabia.
    Two, concerns about the JCPOA make it even more important 
to limit the spread of enrichment in the region. The best hope 
for reining in Iranian capabilities is to bring Iran into line 
with norms in the region.
    The JCPOA limits are the start, not the finish.
    Three, there's no substitute for U.S. leadership in nuclear 
nonproliferation, nuclear safety, and security. The point is 
not to lower our standards but to raise others.
    And four, if Saudi Arabia desires flexibility for future 
options, it should sign a shorter agreement with the U.S.--an 
agreement with 10 to 15 years' duration would match phases in 
the JCPOA if that's a concern.
    Fifth, Nuclear Suppliers Group members will discourage 
Saudi enrichment but might support a multilateral approach that 
could possibly benefit the whole Middle East.
    Finally, part of the challenge in collaborating with Saudi 
Arabia will likely be a lack of transparency. Congress can help 
in the following ways. I do applaud the new bill. I think it 
does a lot of important things.
    Saudi Arabia needs to rescind its Small Quantities Protocol 
or adopt the amended version recommended by the IAEA. An 
Additional Protocol is essential to its safeguards agreement 
but would also be a useful educational exercise for Saudi 
Arabia's new regulatory authority.
    And finally, you should levy a requirement for the Director 
of National Intelligence to provide annual unclassified and 
classified reports to Congress on WMD-related acquisitions and 
transfers to and from Saudi Arabia.
    You used to get those reports across the board and for some 
unknown reason they were ended.
    Thank you very much and I welcome your questions.
    [The prepared statement of Ms. Squassoni follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. Really excellent 
testimony. I will begin with the question and answer period.
    The administration and the nuclear industry are both 
touting the economic and commercial benefits of a 123 Agreement 
with Saudi Arabia. Exactly how much the U.S. economy would 
benefit is highly uncertain, as all of the models and all of 
the projections make heavy assumptions that are far from 
guaranteed.
    But this economic and commerce argument raises another 
question about the lack of congressional oversight. Trade 
agreements are subject to strong congressional debate. We have 
an up and down vote on approval.
    But 123 Agreements, which also impact our national 
security, are passively approved under current law. If the 
administration and the industry are touting this agreement as, 
essentially, a trade or commerce deal--however flawed that 
logic may be--based on its economic impact, then should it not 
at a minimum be getting the same treatment with an up and down 
vote? And so you can answer that when I finish my round of 
questions here.
    And on Monday, the Saudi foreign minister called the 
Iranian nuclear deal a flawed agreement and the 
administration's next steps on the JCPOA are reported to be a 
major part of the discussions between the U.S. and Saudi Arabia 
officials this very week.
    And with the Crown Prince stating earlier that Saudis will 
get a nuclear bomb as soon as Iran gets one, it is clear that 
the JCPOA and the administration's current 123 negotiations are 
linked.
    So I would ask the panelists what impact do you think the 
JCPOA had on Saudi Arabia's nuclear plans and how did the JCPOA 
impact our leverage in 123 negotiations?
    And related to that, considering the JCPOA's enrichment 
restrictions--they start to sunset in just 10 years--what 
options do we have with the Saudis and how can we meet our 
nonproliferation goals in the region?
    And we will start with you, Henry. Thank you.
    Put the microphone on and hold it closer.
    Mr. Sokolski. Sorry.
    I think we need to think a bit bolder than even Mr. Trump, 
and that's saying a lot because he's a pretty bold guy.
    I think you can't just extend the duration of the kinds of 
controls on enrichment that are in Iran. The reason your 
legislation and this hearing is important is it ought to be a 
wake-up call that maybe we have to think big and that would 
mean getting the gold standard not just for Saudi Arabia but 
that should be part of the President's agenda.
    In this regard, the quickest smartest way to help that 
happen is to take the advice that the UAE actually is giving by 
not going any more nuclear to provide assistance to folks in 
the region for lots of things that make more economic sense.
    I have entered into the record two recent studies by 
leading energy economists that show what the kinds of things 
are that you would do that--where you'd make money and you 
don't have to worry about bombs or being bombed because these 
facilities, when they're large, get targeted.
    So that, I guess, is my brief answer.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Tobey.
    Mr. Tobey. So, Madam Chair, if I understood your questions 
correctly, it was what impact did the JCPOA have on Saudi 
thinking and how did that affect our leverage in this 
situation.
    So it's very clear that the weaknesses in the JCPOA drive 
valid Saudi concerns. I just happen to think that the correct 
way to address those weaknesses is not by a Saudi nuclear 
weapons program, but by other means, which are quite possible, 
that would bring to bear American influence--political, 
military, diplomatic--on the situation.
    With respect to what impact it had on our leverage, those 
that say that we have no leverage on this situation because 
others will sell the reactor ignore broader aspects of the 
problem.
    It's true that within the narrow focus of just nuclear 
matters there are other suppliers that would be willing to take 
the field.
    But Saudi Arabia would be foolish to take on Iran without 
American support.
    Ms. Ros-Lehtinen. Thank you, sir.
    Ms. Squassoni.
    Ms. Squassoni. Thank you.
    On the question of what economic benefits we might have, I 
think it's important to remember that a 123 Agreement is not a 
contract and, honestly, Westinghouse is not in a good position 
to be selling reactors.
    I agree with Henry that it's likely going to be a South 
Korean contract. Now, does that mean that we should lower our 
standards to enable South Korea to get business with Saudi 
Arabia? That is not clear to me.
    On the JCPOA, I would say little impact because, really, 
it's kind of a red herring. Without the JCPOA, Iran would be 
enriching.
    Let's not forget that countries can legally acquire 
enrichment and reprocessing and they can stockpile as much 
material as they would like, right.
    If they have a big stockpile of bomb-grade plutonium or 
highly enriched uranium, they have a lot of inspections--it's 
true.
    But whether or not the JCPOA has linkage to this, the fact 
of the matter is the U.S. does not support the spread of this 
technology. The JCPOA, even though it has sunset provisions, is 
giving us an opportunity to bring Iran around and we need to 
take every opportunity we can so that when those provisions 
sunset they wake up and realize pursuing those kinds of 
capabilities is not in their national security interest.
    Ms. Ros-Lehtinen. Thank you very much to all of you again 
for being here.
    And now I am very pleased to turn to my friend, Mr. Deutch 
of Florida.
    Mr. Deutch. Thank you, Madam Chairman.
    We've had lots of discussion about the decision on a 
nuclear agreement with Saudi Arabia and having ripple effects 
throughout the region.
    I guess my question is this. We are at this moment where 
the President--where the President is now talking openly of 
pulling out of the Iran nuclear deal at the same time that 
there's conversation about entering into a nuclear agreement 
with the Saudis, which may permit enrichment if--and I would 
like to just--you have touched on--each of you have touched on 
this a bit but if you could just explore what it means if both 
of these things were to happen if we--if the President pulls us 
out of the Iran deal and what that will mean in terms of 
Iranian enrichment, then look at what impact that would have on 
a deal like this with Saudi Arabia, particularly in light of 
the comments that I referred to earlier.
    Mr. Sokolski.
    Mr. Sokolski. I am reminded of the Tom Lehrer lyric, 
``We'll all go together when we go.'' Let's think this through.
    First of all, please don't rush. If you're going to do 
something wrong, don't be in a rush for it. I always tell my 
staff if you're going to do something stupid, take your time. 
Okay.
    Second, if it's going to be really foolish, let's put it to 
a vote. I will tell you why you want to do all that because 
your question goes directly to our future.
    The Saudis, clearly, are going to try to bootstrap up. If 
the Iranians break out of that deal or that deal is terminated, 
you will see them ramp up their enrichment almost certainly is 
quite likely or, you know, in time.
    The Saudis will then work with what they have whether they 
buy it from us or not. They have those two Korean reactors. 
They can use that. It has everything they need to do what they 
want to. They don't even have to buy American or Russian or any 
of that.
    What then will happen is the UAE, if we strike this deal 
with the Saudis, will say hey, what about us--we have a clause 
that says we should at least be given an opportunity to amend 
ours.
    So too does Egypt and its deal comes up, I believe, in 
2021. Then Turkey, our favorite ally--you folks must have a 
hearing or two on that--in 2023, Morocco in 2021, and let's not 
forget why Mr. Sherman showed up. South Korea, they also want 
to enrich. At a minimum, even their current President wants 
nuclear submarines and previously the President before that 
wanted to do recycling. Well, you have a deal with Saudi 
Arabia--what about us, and then, of course, you have what Japan 
will do.
    You get the picture. I mean, it's a mess. You are throwing 
kerosene on the embers of the current proliferation problem in 
expectation that with enough of it, you will snuff the fire 
out.
    Mr. Deutch. Mr. Tobey, Ms. Squassoni, what would tell--what 
would you tell the Emiratis when they come to us after a deal 
is struck with Saudi Arabia that permits enrichment and assume 
that happens.
    Assume also that the President pulls us out of the Iran 
deal. The Emiratis come and say, wait a second--in light of 
everything that's going on in the region, you're our ally--we 
assume you're going to be willing to renegotiate our deal--that 
gold standard just doesn't work anymore.
    What's our response?
    Mr. Tobey. The UAE deal provides for the ability to 
renegotiate it if the UAE faces terms that are less favorable 
than others that are negotiated subsequently.
    So they have the right to pursue that and there's not much 
we can do. I actually think the UAE is unlikely to do so 
because I regard them as a genuinely responsible 
proliferation--nonproliferation player.
    Your earlier question about what the combined impact of a 
withdrawal from the JCPOA and a green light to Saudi enrichment 
would be, the short answer is it would be a proliferation 
disaster.
    I've been a critic of the JCPOA. But if the duration is one 
of your criticisms, taking its duration to zero makes no sense 
whatsoever, especially since the bulk of the benefits to Iran 
have already accrued to Tehran, whereas the benefits to us 
accrue over time.
    Mr. Deutch. Just if I may, Madam Chairman, just one last 
question.
    Ms. Squassoni, so let me ask what would America's 
response--what should America's response be then to the Saudis 
if the question is okay, well, we would very much like to enter 
into this deal with you.
    But if you're prepared to do it then we are just going to 
go elsewhere? I know Mr. Sokolski says unlikely the Russians. I 
understand why. But Russians, South Koreans, anywhere else, 
what's our response then?
    Ms. Squassoni. Well, there's a thing called the Nuclear 
Suppliers Group where we harmonize our export controls and 
Russia and China are members of that.
    Let me just make something crystal clear. We don't give 
enrichment or reprocessing technology to anybody. We don't do 
it.
    So what we are actually talking about and what Saudi Arabia 
wants is our consent for them to do that with our material in 
the future. So they've got to get it from somewhere else.
    We still, even though we stirred the pot 10 years ago with 
the India deal, we still have a lot of leverage within the 
Nuclear Suppliers Group.
    If the JCPOA goes away and there's nothing to replace it, 
and we have an agreement with Saudi Arabia or we don't, Saudi 
Arabia has to go to someone to ask them for enrichment and 
reprocessing.
    If no one in the Nuclear Suppliers Group will give it to 
them, they could go to North Korea or they could go to 
Pakistan. Either way, that is creating a whole other dynamic in 
the region.
    It would be even worse than Henry's, you know, pouring oil 
on the fire. That would be a disaster. I am not saying it's 
going to come to pass but they do have limited options.
    In terms of what we tell Saudi Arabia, it is you are a 
nuclear newcomer state--you do not need enrichment and 
reprocessing.
    We have a standard in the Middle East, which we are 
committed to upholding, and if you're concerned in the future 
let's talk about it in 10 years' time.
    Mr. Deutch. Great. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much. Thank you.
    Mr. Donovan of New York.
    Mr. Donovan. Thank you, Madam Chairman.
    Are the international inspections--we enter this 
agreement--are international inspectors able to--I mean, are 
they overworked by the JCPOA?
    Are they going to be able to make inspections that are 
going to make us feel comfortable about Saudi Arabia following 
whatever protocols are in place?
    Mr. Sokolski. In a word, no, and the reason why is they are 
very clear in Vienna and they've been very honest, if we would 
bother to listen, that they cannot absolutely guarantee that 
they know where things might be if someone wants to hide them 
from them. That's what happened in Iraq. That's what happened 
in Iran. That's what happened in North Korea, and the Agency, 
to its credit, was candid about that.
    We won't take no for an answer, though. We need to. There 
are limits. Not only that, but there are ways of operating 
overt facilities such that you can break out so quickly that 
the ability of us to convene a hearing, much less to do 
anything, might not be very quick.
    It's called timely warning. We don't have it. You can have 
inspections of light water reactors if you know there's not any 
desire to enrich or reprocess. You can keep track. You can do 
that.
    But if there's any reason to believe someone is covertly or 
overtly enriching or reprocessing, you're in trouble and I 
think--you know, I share the criticisms that Will Tobey has 
about the Iran deal on that basis. I think we are kind of 
kidding ourselves as to how well that can be verified.
    Mr. Donovan. Do you all agree with that as well?
    Mr. Tobey. Yes, and I would just add that it's important to 
understand that the scale of enrichment capacity necessary to 
fuel reactors is far larger than the scale that's necessary to 
have a viable weapons program.
    So it's easy to hide a weapons program within this larger 
system, which makes the breakout potential even more dangerous 
and the breakout period even shorter.
    Ms. Squassoni. I have a slightly different perspective. I 
would say that under the JCPOA we have higher confidence than 
we do under just regular comprehensive safeguards. That was the 
whole purpose, right?
    You get more information, more access to more sites. You 
have a lot of information about the procurement chain. So the 
measures under the JCPOA are better than what we have under the 
Nuclear Nonproliferation treaty's comprehensive safeguards 
agreement.
    But your question did not specify whether Saudi Arabia had 
enrichment capability or not. I would say we have more 
confidence if it has a simple program with light water 
reactors.
    When you introduce sensitive nuclear fuel cycle 
technologies into the equation, the confidence goes down.
    And let me just say one thing. Most countries with a 
complete fuel cycle are former nuclear weapon states or nuclear 
weapon states. There are few exceptions. Japan--who else? 
Germany.
    Mr. Sokolski. Brazil.
    Ms. Squassoni. Well, yes. Brazil and Argentina. Brazil has 
a small enrichment program. But that came from its weapons 
program.
    Mr. Donovan. Aren't we dependent, though, on the country 
being forthcoming, permitting access, whereas, my 
understanding, in part of the Iran deal is Iran is selecting 
where the inspectors go, what soil to test.
    They're removing the soil and giving what soil they want 
tested rather than having the inspectors themselves choose the 
sites.
    Mr. Sokolski. Two comments. I don't know how many lawyers 
are up here. Too many. Well, but I've always been told--and I 
worked in the Justice Department briefly--that laws are meant 
to be broken but people don't understand what that means. What 
it means is you have got to catch people breaking the laws and 
if you do, that's okay. That's part of the reason why even 
outrageous countries like North Korea are very concerned about 
the law and what they're being asked to sign up for. It's not 
for nothing that the Iranians negotiated as long as they did. 
It's not for nothing that the North Koreans took so long to 
negotiate the things that they negotiated with us and it's not 
for nothing that the Saudis are also very concerned about the 
letter of the law.
    You have got something here. Use it.
    Mr. Donovan. Thank you.
    Madam Chairman, my time has expired. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Donovan.
    Ms. Frankel of Florida.
    Ms. Frankel. Thank you very much.
    So I want to go back to the statement that my chair and 
ranking member mentioned at the beginning.
    When Crown Prince Mohammed bin Salman met--let's see, he 
had an interview with CBS and said Saudi Arabia does not want 
to acquire any nuclear bomb, but without a doubt, if Iran 
developed a nuclear bomb we will follow suit as soon as 
possible.
    So here's my question. What are the steps that Saudi Arabia 
has to start to take to get to that position and what is the 
leverage that we have to prevent that from happening?
    Mr. Sokolski. I will take a shot at that.
    Let's put on our bomb-making hats. Okay. First thing you 
want to do is have a program that causes so much noise for 
anyone monitoring what you're doing that it's very hard for 
them to see the signal of you procuring the bits and pieces to 
do enrichment.
    You don't have to buy it from the Russians, the Americans, 
or the French. You buy it by going to perhaps Pakistan, your 
good buddy, and you say, how do you go about procuring the 
little bits and pieces and who do you contact, and you put that 
together while you continue to train up and build some large 
reactor.
    And as I noted, even these research reactors are way big. 
Well, you have two routes then. One would be you could divert 
plutonium made in the research reactors and there are ways to 
get around IAEA safeguards.
    I can go into detail later if you'd like. Or you bide your 
time and put together an enrichment program. A lot of people--I 
am married to someone who's Australian and because she worked 
for the government, I got to know a lot of Australians 
including people who worked on their bomb project. And it did 
not take more than a few years, as in maybe three, for them to 
put together a really good enrichment system.
    We are assuming that the Saudis somehow are inferior or 
they don't know how to do long division or they can't buy 
assistance. I think all of that's wrong. It's been wrong every 
time. We said that of the Indians, the Pakistanis.
    Ms. Frankel. What are their options on getting the reactor?
    Mr. Sokolski. Well, they already have it.
    Ms. Frankel. Okay. So they need to get the material----
    Mr. Sokolski. In other words, they are buying two of them. 
They will be built.
    Ms. Frankel. And what is our leverage? What is our 
strength?
    Mr. Sokolski. Your leverage is what the chairwoman is 
suggesting you all sign up to, again. You reported it out of 
committee in 2011. Do it again. Repetition is the soul of wit 
in politics, I am told.
    If you do it, it'll mean that the gold standard will be 
something the negotiators, who are not done with our deal, will 
be thinking a lot more about. If you get that, then it won't 
matter that they have the reactors.
    Ms. Frankel. Well, what is--what is our leverage to get 
them to sign that?
    Mr. Sokolski. I think----
    Ms. Frankel. If they can----
    Mr. Sokolski [continuing]. President Trump did a pretty 
good job on TV yesterday laying out all the things that the 
Saudis are buying. They are not just buying pieces of hardware. 
They're trying to integrate themselves into the American 
security system. That, I would submit, is an enormous lever 
that, for some reason, no one's thinking about.
    Ms. Frankel. Got it.
    Anybody else want to add something?
    Mr. Tobey. I would say it perhaps in a more succinct 
fashion.
    We should tell them that U.S. support for Saudi Arabia is 
contingent upon Saudi Arabia's commitment to the NPT and a 
Saudi nuclear weapons program will end the American security 
commitment to Riyadh.
    Mr. Sokolski. That's it.
    Ms. Frankel. Got it. Thank you.
    Ms. Squassoni. I agree with my esteemed colleagues.
    Ms. Frankel. Thank you very much. I yield back, Madam 
Chair.
    Mr. Donovan [presiding]. The gentlewoman yields.
    The Chair recognizes the gentleman from Virginia, Mr. 
Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome to our 
panel.
    I've got to say, Mr. Sokolski, I very much enjoy your 
repartee and your answers. It's nice to have color in our 
hearings now and then.
    No, but I mean that as a compliment. You indicated, look, 
the odds of Riyadh--because we keep on hearing, well, if we 
press them too hard they're going to go to Russia and China, 
and you said the odds of Riyadh buying Russian are about as 
likely as them buying Iranian because they're about that close.
    Similarly, China is not an attractive option either. Could 
you expand on that? Because I think we hear that as if it's a 
real threat. I've never been persuaded of it but I thought 
you'd expand on your statement.
    Mr. Sokolski. This was an insight I got from someone from 
Congressional Research Service, who I don't think thought 
through what he meant, and we both worked this up in our heads.
    Let's say you're interested in a bomb option. You're a 
Saudi. Putting aside the quality of the product which, I got to 
tell you, is not great--the last time their export version was 
put up on the grid for a safety test it immediately had to be 
taken off the grid. Putting aside that when you allow the 
Russians into your financial dealings you lose money or, in the 
case of the South Africans, you get thrown out for corruption. 
Put all that aside.
    Mr. Connolly. Or you could even get compromised 
politically, but that's a different----
    Mr. Sokolski. Yes. Right.
    Put all that aside. There's a bigger problem. Your game has 
to be to keep the world from knowing what you're doing. Why 
would you let Russian technicians who are thick as thieves with 
the Iranians into your house? I am not worried about the 
Russians. If somebody wants to use that narrative to buffalo 
you, grab your wallet. Walk out. It's not right, in my head.
    The Chinese have a different problem. They and the French 
have the same kinds of problems and, arguably, we do, and 
Westinghouse does. We don't have an operating version of many 
of these reactors that we are trying to pitch them. The ones in 
China that might be exporting have not been reviewed or 
licensed anywhere in the West. They will be, but not for a few 
years. So, you know, there's a reason why, when the original 
bid went out from Saudi Arabia it was almost rigged so only the 
South Koreans could win it. They read the newspapers. They know 
what's in their interest. Now, we opened that up but I don't 
think we should assume that somehow it's immediately going to 
go to someone other than the Koreans.
    Mr. Connolly. Yes. Well, thank you, and of course, the 
other thing is if we fall below the so-called gold standard we 
invite the UAE to insist on renegotiating and we have--we have 
basically dumbed down the standard for others in the region and 
other parts of the----
    Mr. Sokolski. Well, I mean, essentially if you buy the 
Russian argument you might as well just not pay any attention 
to this issue.
    Mr. Connolly. Right.
    Mr. Sokolski. You give them all the leverage and you say, 
well, whatever you want.
    Mr. Connolly. That's right.
    Mr. Sokolski. I don't think that makes sense at all.
    Mr. Connolly. I agree. I thank you.
    Ms. Squassoni, in the time I have left, so if we renounce 
or abrogate the JCPOA--the Iran nuclear agreement--doesn't that 
incentivize countries like the Saudis to now have their own 
nuclear development program because, clearly, the Iranians will 
develop a nuclear--will return to their nuclear threshold 
status and beyond if we renounce our own agreement roll it back 
or freeze it?
    Ms. Squassoni. I think you have to ask the question what 
happens if the U.S. renounces this agreement. It's not entirely 
clear to me that everyone else will take their toys and go 
home.
    Iran has certain benefits from continuing to adhere to the 
agreement.
    Mr. Connolly. I agree with your point, but forgive me--I've 
got 35 seconds.
    Ms. Squassoni. Sure.
    Mr. Connolly. But my point is should Iran say okay, fine, 
then we are going to return to our nuclear development program 
that we had rolled back and frozen at your insistence under 
this agreement.
    Doesn't that mean that the Saudis--this topic we are 
talking about here--have more of an incentive to develop their 
own nuclear program because they're now worried that the 
Iranians are proceeding?
    What we have on ice is suddenly no longer on ice, and Mr. 
Tobey, you look like you might want to comment as well. Real 
quickly, because--I thank the chair.
    Ms. Squassoni. I will be quick. Yes an incentive.
    Mr. Connolly. Yes, go ahead, Ms. Squassoni. I am sorry.
    Ms. Squassoni. Yes. That will provide them greater 
incentives. There were other things that the United States can 
do in terms of security assurances, nuclear deterrence, other 
things like that.
    But if the Saudis are intent on matching then there's not 
much we can do about it except put something else in place 
before you torpedo something that is currently freezing Iranian 
capabilities.
    Mr. Connolly. Excuse me. Well, it is a novel approach to 
diplomacy to renounce and abrogate your own treaty. But that's 
a different subject.
    Mr. Tobey.
    Mr. Tobey. I agree with you, sir, and with Ms. Squassoni.
    Mr. Connolly. And Mr. Sokolski, do you agree?
    Mr. Sokolski. Yes, you're on to something at least to this 
extent, for sure. You don't get the Saudi agreement in such a 
fashion signed out that it permits enrichment and reprocessing 
before you find out what's going on with Iran.
    Mr. Connolly. Yes.
    Mr. Sokolski. And I would urge you all to slow the train 
down. Getting that darn bill out finally again, will be the 
loudest signal to the negotiators you can possibly deliver. The 
last time you guys had an opinion, you know what you produced? 
The gold standard. Get on it again, will you?
    Mr. Connolly. Thank you.
    Well, we have a checkered past but some of our opinions 
actually have efficacious value, and I appreciate your saying 
that.
    I do think it's important though what we just heard from 
this panel, and then I will shut up, Madam Chairman.
    But is that renouncing Iran agreement--the JCPOA--has 
consequences far beyond Iran and, frankly, would have the 
unintended consequence potentially of actually proliferating, 
especially in countries such as the one we are talking about 
today--Saudi Arabia.
    So I would hope the President and the White House will take 
that into account before they make any kind of decision.
    Thank you, Madam Chairman, for your indulgence.
    Ms. Ros-Lehtinen [presiding]. Thank you, Mr. Connolly. 
Thank you very much.
    And if I might just have two follow-up questions and then 
anybody would--if you wanted to you could have one. Thank you.
    But just to emphasize the need for the bill that I've been 
pushing, has there ever been an instance where Congress has 
ever passed a resolution of disapproval and then in fact 
successfully blocked a 123 Agreement?
    The answer is no, but go ahead. Yes, has there been one?
    Ms. Squassoni. No, but in the case of the China agreement, 
Congress conditioned its approval----
    Ms. Ros-Lehtinen. True.
    Ms. Squassoni [continuing]. And there were no nuclear 
exports for 13 years, and so there are various ways that 
Congress can put in conditions, can put in certifications, et 
cetera.
    May I just take a moment and respond to you?
    Ms. Ros-Lehtinen. Yes, please.
    Ms. Squassoni. You know, the Nuclear Nonproliferation Act 
of 1978 made a tradeoff. It strengthened the nonproliferation 
requirements but it also gave this kind of quasi fast track 
approval, a passive approval.
    The one thing that it envisioned was consultations with 
Congress and those have not happened. So when the U.S.-India 
nuclear deal came before you, it was already written.
    And so thank you for holding this hearing because I think 
you have to start the debate before the ink is dry.
    Ms. Ros-Lehtinen. We need to have a voice instead of a fake 
process. Yes, Henry?
    Mr. Sokolski. Actually, the fast track was locked in when 
we were in a propaganda war pushing out small research reactors 
in 1954. We went along in 1978 with that again.
    Seems to me, though, that every--you had 1946, 1954, 1978--
that's 40 years. You're due to do an estimate of what the 
margin of safety requires. Surely you have learned something in 
the last 40 years about the adequacy of IAEA safeguards, the 
willingness of people to cheat, our ability to keep track of 
covert facilities, and just how many things have been bombed.
    Take that into account. I think your bill is long overdue. 
It is something that has been--you know, the correction on what 
is an exempt agreement. It has been visited routinely. You're 
due. It's time for an oil change.
    Ms. Ros-Lehtinen. Thank you.
    And as you mentioned, we have some 123 Agreements with 
Egypt, with Morocco, Turkey. They're up soon. So let's see what 
the administration is going to take these agreements one at a 
time or what it will do.
    Ms. Frankel, I know that you had a follow-up question.
    Ms. Frankel. I guess I would just----
    Ms. Ros-Lehtinen. Yes.
    Ms. Frankel. I am just trying to get something clarified 
here. So in listening to you, I guess we can assume that Saudi 
Arabia, hypothetically, could get a research facility and the 
materials they need without going through the United States or 
without the United States' participation. Is that right? Yes? 
You think so? Okay. Okay.
    So yes, that's what--because that was going to get my next 
step to that. They are now a party to the nonproliferation 
treaty. Is that correct?
    Mr. Sokolski. Yes.
    Ms. Ros-Lehtinen. Microphone on?
    Mr. Sokolski. Yes, they are.
    Ms. Frankel. Yes. Okay. So I guess what I am trying to 
understand is, and I know I heard you say we have a lot of 
leverage, which sounds correct, over Saudi Arabia in a lot of 
different areas.
    But my question is, they've signed on to the 
nonproliferation treaty. What more can we do, let's say, or 
should we do?
    Mr. Sokolski. I think what Will Tobey said succinctly and I 
didn't say succinctly, and I give him credit, is basically the 
Pope and the U.N. don't have as many divisions as we do, and if 
you are willing to tell your good friend and ally that we are 
there for them but the prerequisite is they actually have to 
follow the NPT and not threaten to leave it and live up to the 
gold standard and get behind us leaning on the Iranians to get 
them to behave, it'll work.
    That's the reason, again, I think the legislation is 
reasonable and urgently needed.
    Mr. Tobey. By the way, as someone who has negotiated some 
of these agreements on behalf of the executive branch, I can 
say that it really helps to have Congress in the right place on 
these issues.
    If we can point to the fact that we can't get it past our 
Congress if it doesn't have certain provisions, that's a 
powerful tool and speaks all the more about the importance of 
cooperation between the two branches.
    Mr. Connolly. Well, we are here to help, Mr. Tobey. 
That's----
    Ms. Frankel. Did you want to add something?
    Ms. Squassoni. I did want to add something. I mentioned 
this is in my testimony. Saudi Arabia is a member of the NPT 
but it hasn't crossed all the T's and dotted all the I's.
    Because it has very little material in the country it has 
what is called the Small Quantities Protocol.
    Back after we discovered Iran's clandestine program, the 
International Atomic Energy Agency said, hey, all you countries 
with Small Quantities Protocol this is a huge problem because 
you won't let our inspectors in.
    So you either have to modify that or rescind it. They asked 
Saudi Arabia in 2005. We are still waiting. Half the countries 
who had those protocols have changed them. So that's one thing.
    And the other thing is the Additional Protocol, which is in 
H.R. 5357. We should certainly ask Saudi Arabia to sign that 
Additional Protocol because it gives inspectors more access and 
more information.
    Ms. Frankel. Thank you very much. I yield back.
    Ms. Ros-Lehtinen. Thank you. Thank you for that follow-up 
question.
    Thank you to our witnesses. Thank you for everyone to--for 
being here. We look forward to continuing this discussion. This 
is not going away.
    And with that, our hearing is adjourned. Thank you.
    [Whereupon, at 3:15 p.m., the committee was adjourned.]

                                     

                            A P P E N D I X

                              ----------                              

Note: The preceding document has not been printed here in full but may 
be found at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108057

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
